                    Improvements Are Needed to Ensure
                    Tax Returns Are Correctly Prepared at
                        Taxpayer Assistance Centers

                                  December 2003

                       Reference Number: 2004-40-025




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.



Redaction Legend:
3a = Identifying information - Name of an Individual or Individuals
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GEN ERAL
      for TAX
  ADMINISTRATION




                                                    December 10, 2003


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Improvements Are Needed to Ensure Tax
                                     Returns Are Correctly Prepared at Taxpayer Assistance Centers
                                     (Audit # 200340021)


       This report presents the results of our review of tax returns prepared at the Internal
       Revenue Service (IRS) Taxpayer Assistance Centers (TAC). The overall objective of
       this review was to determine if tax returns prepared were correct1 based on the facts
       provided by the taxpayers. Our assessment also included determining whether IRS
       emplo yees at the TACs properly screened taxpayers to ensure qualifications for tax
       preparation assistance were met prior to preparing the tax returns.
       Taxpayers are provided with the ability to seek assistance from the IRS in person at its
       TACs. The primary emphasis of the TACs is to provide face-to-face assistance to
       taxpayers in meeting their filing and payment responsibilities, including educating
       taxpayers, providing self-help, interpreting tax laws and regulations, securing forms,
       resolving notices, and providing need-based complimentary tax return preparation.
       Complimentary tax return preparation is provided to those taxpayers whose returns
       meet certain requirements and limitations (i.e., the type of tax return, the type and
       amount of income being reported, and deductions claimed).2 IRS employees located at
       the TACs prepare the tax returns using an electronic tax preparation software package.
       Current year tax returns are electronically filed at no cost to the taxpayer, providing the
       taxpayer with a faster refund than if a paper tax return was filed.
       For Tax Year (TY) 2002, IRS employees at the TACs prepared 289,312 tax returns that
       involved refunds and tax liabilities totaling approximately $330 million and $6 million,

       1
         Correct determination is based on whether IRS employees preparing the tax returns properly evaluated eligibility
       for credits and/or deductions claimed on the prepared tax returns.
       2
         A detailed list of requirements is provided later in the report.
                                                         2


respectively. In addition, IRS employees at the TACs prepared 3,930 tax returns on
which the taxpayers had no refund or liability (break-even).
From February through April 2003, Treasury Inspector General for Tax Administration
auditors made 34 anonymous visits to 26 TACs nationwide in an attempt to have a tax
return prepared. These visits resulted in 23 prepared tax returns. Results show
taxpayers do not always receive proper and accurate customer service assistance
during tax return preparation. Specifically, in 21 (72 percent) of the 29 visits, 3 IRS
employees at the TACs did not inform auditors of tax return preparation requirements
prior to preparing or scheduling an appointment to prepare the tax return. In addition,
none of the IRS employees at the TACs who prepared the 23 tax returns first advised
the auditors of the specific forms they were trained to prepare.4
Further results show that tax returns are not always correctly prepared. IRS employees
incorrectly prepared 19 (83 percent) of the 23 tax returns prepared during our visits. If
17 of the 19 incorrectly prepared tax returns had been filed, the IRS would have
incorrectly refunded approximately $32,000. If the remaining 2 incorrectly prepared tax
returns had been filed, the IRS would have inappropriately withheld $2,400 in tax
refunds.
During the course of the review, we communicated our concerns to IRS management.
In response, IRS management immediately initiated corrective actions, including
requiring IRS employees providing tax preparation assistance to ask questions , based
on existing tax instructions and publications, to obtain relevant facts needed to
determine that the credits and deductions claimed on a tax return are correct. However,
additional actions are needed to ensure taxpayers receive proper and accurate
customer service when requesting assistance with tax return preparation.
We recommended that the Commissioner, Wage and Investment (W&I) Division, ensure
that IRS employees at the TACs 1) follow the existing screening procedures before
providing taxpayers with tax preparation assistance or scheduling an appointment, and
2) use the existing tax law instructions and publications to determine taxpayer eligibility
for credits and deductions claimed on the tax return. In addition, the Commissioner,
W&I Division, should ensure that a quality review methodology for tax return preparation
assistance is in place for the upcoming filing season.5
Management’s Response: IRS management appreciated our recognition of the
corrective actions they took during the course of the review. The IRS’ long-term
approach to improving quality in the TACs is the implementation of Embedded Quality.
This approach focuses on standardized measures, employee monitoring, and feedback
at the group level.


3
  This percentage is based on 29 visits because, at 1 TAC, an auditor had 2 tax returns prepared, but the TAC was
required to screen the auditor only once upon entering the TAC. During four visits, auditors did not go through the
screening process because they were denied service.
4
  All scenarios used by auditors involved tax law topics within the scope of employee training.
5
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                        3


IRS management agreed with our recommendations and is taking corrective action.
The IRS will issue a memorandum reminding all Field Assistance function6 employees
to adhere to tax return preparation and screening procedures in the Internal Revenue
Manual (IRM). Until Embedded Quality is fully implemented in all the TACs, the IRS will
also develop a quality review plan to identify actions needed to ensure TAC employees
are adhering to return preparation procedures in the IRM. This plan will include
requirements for managerial reviews of TAC employees who prepare tax returns and
steps the Quality Review staff will take to review tax return preparation in the TACs.
Management’s complete response to the draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.




6
 The Field Assistance function is a business unit within the W&I Division’s Customer Assistance, Relationships,
and Education function.
                          Improvements Are Needed to Ensure Tax Returns
                        Are Correctly Prepared at Taxpayer Assistance Centers




                                                  Table of Contents


Background ...........................................................................................................Page 1
Tax Returns May Be Prepared for Taxpayers That Do Not
Qualify for Tax Preparation Assistance ...........................................................Page 4
          Recommendation 1: ................................................................ Page 7

Taxpayers May Have Tax Returns Incorrectly Prepared at
Taxpayer Assistance Centers ............................................................................Page 8
          Recommendations 2 and 3: ..................................................... Page 14

Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 15
Appendix II – Major Contributors to This Report.............................................Page 17
Appendix III – Report Distribution List...............................................................Page 18
Appendix IV – States Visited for Tax Preparation Assistance
February through April 2003...............................................................................Page 19
Appendix V – Tax Years 2001 and 2002 Tax Returns
Prepared at Taxpayer Assistance Centers for Taxpayers
With Income That Exceeded Requirements ....................................................Page 20
Appendix VI – Results of Tax Returns Incorrectly Prepared at the
Taxpayer Assistance Centers ............................................................................Page 22
Appendix VII – Management’s Response to the Draft Report ......................Page 23
               Improvements Are Needed to Ensure Tax Returns
             Are Correctly Prepared at Taxpayer Assistance Centers

                             One of the Congress’ principal objectives in enacting the
Background                   Internal Revenue Service (IRS) Restructuring and Reform
                             Act of 1998 (RRA 98) 1 was to mandate that the IRS do a
                             better job of meeting the needs of its customers. As part of
                             the RRA 98, the Congress directed the IRS to achieve a
                             better balance between its post- filing enforcement efforts
                             and pre-filing taxpayer assistance through education and
                             service.
                             In response to the Congressional mandate, the IRS
                             reorganized its functional areas and revised its mission
                             statement to refocus its emphasis on helping taxpayers
                             understand and meet their tax responsibilities.
                             As part of the IRS’ restructuring efforts, the IRS Field
                             Assistance (FA)2 function was created. Its mission is to
                             minimize the burden to customers in satisfying their tax
                             obligations by providing the right services at the right
                             location at the right time. To accomplish its mission, the
                             FA function has over 400 Taxpayer Assistance Centers
                             (TAC) organized into 7 geographical areas located
                             throughout the United States (U.S.).
                             The primary emphasis of the TACs is to provide
                             face-to-face assistance to taxpayers in meeting their filing
                             and payment responsibilities. This includes educating
                             taxpayers, providing self- help, interpreting tax laws and
                             regulations, securing forms, resolving notices, and
                             providing complimentary need-based tax return preparation.
                             TACs provide certain taxpayers wi th free tax return
                             preparation assistance
                             The IRS provides certain taxpayers face-to- face assistance
                             when preparing their tax returns. Complimentary tax return
                             preparation is provided at the TACs to those taxpayers




                             1
                               Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                             sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                             23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                             2
                               The FA function is a business unit within the Wage and Investment
                             Division’s Customer Assistance, Relationships, and Education function.
                                                                                           Page 1
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                whose returns meet certain requirements based on the type
                of tax return they are filing along with their income. 3
                When taxpayers visit a TAC to obtain assistance or have
                their tax returns prepared, IRS employees prescreen them to
                ensure that their tax returns meet the TAC qualifications for
                complimentary tax return preparation. After the
                prescreening, they are either provided tax preparation
                assistance or offered an appointment to come back to the
                TAC for assistance. They may also be advised of the
                location of a Volunteer Income Tax Assistance (VITA) 4 site
                for tax preparation assistance.
                IRS employees prepare the tax returns using an electronic
                tax preparation software package. Each current year tax
                return is electronically filed (e-filed) at no cost to the
                taxpayer. This provides the taxpayer with a faster refund
                than if a paper tax return was filed.
                According to the IRS, the TACs served approximately
                9.1 million taxpayers during Calendar Year (CY) 2002.
                Approximately 877,800 5 of these taxpayers visited a TAC to
                either have their returns prepared and filed or to request
                assistance preparing their tax returns. From January through
                June 2003, approximately 5.5 million taxpayers visited
                TACs; 526,000 visited them either to have their returns
                prepared and filed or to request assistance in preparing their
                tax returns. Figure 1 shows the number of tax returns, total


                3
                  Tax return preparation is limited to specific U.S. Individual Income
                Tax Returns (Forms 1040, 1040A, 1040EZ, and 1040X), Child and
                Dependent Care Expenses (Form 2441), Education Credits (Hope and
                Lifetime Learning Credits) (Form 8863), Additional Child Tax Credit
                (Form 8812), Qualified Adoption Expenses (Form 8839), and specific
                schedules (i.e., Schedules A, B (interest only), Earned Income Tax
                Credit (EITC), R, C-EZ, and SE (in conjunction with C-EZ only)).
                Taxpayers must provide picture identification, have all necessary tax
                documents including Social Security cards, and may not have income
                that exceeds $33,000 for Tax Year (TY) 2001 and $35,000 for TY 2002.
                4
                  VITA sites provide free basic income tax return preparation assistance
                to individuals with low to moderate incomes, individuals with
                disabilities, non-English-speaking taxpayers, and the elderly.
                5
                  This number includes both taxpayers who had their returns prepared by
                an IRS employee and those who just requested assistance in preparing
                the current and prior year’s tax returns. (The IRS provided this figure.
                We did not verify the accuracy of the number.)
                                                                                Page 2
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                refunds, and total tax liabilities for Tax Years (TY) 2001
                and 2002 tax returns prepared in the TACs.
                                     Figure 1: TYs 2001 and 2002
                             Tax Return Preparation Assistance at the TACs 6

                                 Number of Tax Returns        Total Dollars (Millions)
                    Tax       With       Break-     With
                    Year     Refunds     even 7    Tax Due     Refunded        Due
                    2001      334,479     3,548     33,775       $419          $21
                    2002      277,023     3,930     12,289       $330          $6
                    Totals    611,502     7,478     46,064       $749          $27
                Source: IRS management information system (Return Transaction File)
                containing all tax returns prepared at the TACs.

                Auditors played the role of taxpayers
                To evaluate the procedures followed in the TACs when
                preparing taxpayer tax returns, Treasury Inspector General
                for Tax Administration (TIGTA) auditors played the role of
                taxpayers and completed the steps taxpayers might take if
                they visit a TAC to have their tax returns prepared. From
                February through April 2003, TIGTA auditors performed
                34 anonymous visits to 26 TACs located in 7 states (see
                Appendix IV for the specific states visited).
                During these anonymous visits, TIGTA auditors presented
                scenarios and were successful in having IRS employees at
                the TACs prepare 23 tax returns. The tax returns involved
                only those tax law issues within the scope of services IRS
                employees at the TACs were trained to evaluate while
                preparing the tax returns.
                Each scenario was designed to cover a wide range of tax law
                topics 8 to provide an overall assessment of whether
                taxpayers are having correct tax returns prepared when they
                visit the TACs. Figure 2 provides a summary of the


                6
                  These numbers represent TYs 2001 and 2002 tax returns prepared and
                filed in the TACs and cannot be compared to the number of taxpayers
                that visited the TACs during CYs 2001 and 2002.
                7
                  Tax returns with no refund or tax due.
                8
                  Tax law topics evaluated by IRS employees included Filing Status,
                Dependents, EITC, Child Tax Credit, Additional Child Tax Credit, and
                Rate Reduction Credit.
                                                                               Page 3
                  Improvements Are Needed to Ensure Tax Returns
                Are Correctly Prepared at Taxpayer Assistance Centers

                                auditors’ attempts to have tax returns prepared during the
                                34 visits.
                                            Figure 2: Results of Auditor Visits to 34 TACs

                                                         Tax                 No Tax
                                                       Returns    Service     Return     Appointments
                                                       Prepared   Denied9   Prepared10    Scheduled
                                    TAC Visits            23         4          1              6
                                                  11
                                    Percentages          68%       12%         3%             18%
                                Source: Anonymous visits performed by TIGTA auditors.

                                This review was conducted in the IRS Customer Assistance,
                                Relationships, and Education function in the Wage and
                                Investment (W&I) Division between February and
                                July 2003. The audit was conducted in accordance with
                                Government Auditing Standards. Detailed information on
                                our audit objective, scope, and methodology is presented in
                                Appendix I. Major contributors to the report are listed in
                                Appendix II.
                                IRS employees at the TACs do not always prescreen
Tax Returns May Be Prepared
                                taxpayers to ensure that their tax returns meet the
for Taxpayers That Do Not
                                requirements and limitations, such as the type of tax return,
Qualify for Tax Preparation
                                type and amount of income being reported, and deductions
Assistance
                                claimed. In addition, IRS employees at the TACs who help
                                prepare tax returns do not always first ensure that the tax
                                returns qualify for complimentary tax return preparation and
                                are within the scope of the IRS employees’ tax preparation
                                training. Specifically:
                                ?? For 21 (72 percent) of the 29 visits, 12 IRS employees at
                                   the TACs did not prescreen or advise auditors of tax



                                9
                                  IRS employees incorrectly informed auditors that tax return
                                preparation assistance was not offered at the TACs and referred auditors
                                to a VITA site for assistance.
                                10
                                   The auditor was unable to ensure anonymity and did not request that a
                                return be prepared.
                                11
                                   Percentage does not add up to 100 percent due to rounding.
                                12
                                   This percentage is based on 29 visits because, at 1 TAC, an auditor
                                had 2 tax returns prepared, but the TAC was required to prescreen the
                                auditor only once upon entering the TAC. During four visits, auditors
                                did not go through the screening process because they were denied
                                service.
                                                                                                Page 4
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                     return preparation requirements prior to preparing or
                     scheduling appointments to prepare the tax returns.
                ?? For all 23 of the tax returns prepared, IRS employees at
                   the TACs did not determine if the issues on the tax
                   returns would require forms or schedules that could not
                   be prepared because they were outside the scope of their
                   training. 13
                We recognize that there may be instances where it is more
                appropriate to accommodate taxpayers than to deny
                assistance to those whose returns might not qualify.
                However, IRS employees at the TACs did not always follow
                existing procedures to ensure qualifications for tax
                preparation assistance were met prior to preparing the tax
                return. For example, a review of all tax returns prepared in
                the TACs showed that IRS employees at the TACs prepared
                14,815 TY 2001 and 6,102 TY 2002 tax returns for
                taxpayers with income that exceeded the income limitations
                in IRS internal guidelines.
                For the TY 2002 tax returns prepared for taxpayers whose
                income exceeded the income limitations, the limits were
                exceeded by an average of $158,450, from $35,002 to
                $219,308. See Figure 3 for the specific breakdown by
                income level for tax returns prepared and e-filed 14 by IRS
                employees at the TACs for taxpayers with incomes that
                exceeded IRS guidelines. Appendix V provides a complete
                breakdown by state.




                13
                   All scenarios used by auditors involved tax law topics within the
                scope of employee training.
                14
                   Our results were limited to e-filed tax returns because we could not
                identify the paper tax returns prepared in the TACs. The IRS assigns an
                identification number to e-filed ta x returns to indicate they were
                prepared in a TAC; it does not do so for paper filed tax returns.
                                                                               Page 5
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                     Figure 3: TYs 2001 and 2002 Tax Returns That Exceed Income
                                 Limitations Prepared at the TACs 15

                                      Number of                            Number of
                                     TY 2001 Tax                          TY 2002 Tax
                     Income Level     Returns >        Income Level        Returns >
                       (Dollars)       $33,000           (Dollars)          $35,000
                     33,000-39,999       8,272         35,000-39,999          2,919
                     40,000-59,999       4,765         40,000-59,999          2,297
                     60,000-79,999       1,191         60,000-79,999           616
                     80,000-99,999        370          80,000-99,999           168
                     Over 100,000         211           Over 100,000            98
                     Over 200,000           6           Over 200,000            4
                      Total              14,815             Total       6,102
                Source: IRS management information system (Return Transaction File)
                containing all tax returns prepared at the TACs.

                IRS guidelines require IRS employees at the TACs to:
                ?? Assist taxpayers that visit TACs for tax return
                   preparation assistance on a first-come, first-served basis.
                ?? Designate an employee to control the flow of traffic and
                   prescreen taxpayers to ensure they meet the
                   requirements for tax preparation assistance. The number
                   of taxpayers requesting tax return preparation assistance
                   may, at times, exceed the number of tax returns that can
                   be prepared during 1 workday. Therefore, if it appears
                   that taxpayers cannot be assisted on the day of their
                   visit, IRS employees will offer appointments within the
                   next 5 business days.
                ?? Limit the types of tax return preparation assistance to
                   only those forms and schedules for which the IRS
                   employees have received training.
                ?? Limit assistance to only those taxpayers within the
                   allowable income level. Income level is tied to the
                   amount allowed to claim the Earned Income Tax Credit



                15
                   The preparation of these tax returns represents only 4 percent and
                2 percent of all TYs 2001 and 2002 tax returns, respectively, prepared in
                the TACs.
                                                                                 Page 6
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                     (EITC). 16 The TACs may make exceptions to the tax
                     return preparation limitations to accommodate
                     individuals on a case-by-case basis. However, in most
                     cases involving tax return preparation outside of the
                     limitations, the IRS employee should refer the taxpayer
                     to alternative sources for assistance.
                Preparing tax returns for taxpayers who do not qualify can
                adversely affect the IRS’ ability to provide qualifying
                taxpayers with assistance when they are denied service
                because IRS employees are preparing tax returns for
                taxpayers with incomes that exceed limitations or income
                and deductions that require using forms and schedules on
                which they have not been trained. If guidelines are not
                followed, IRS employees could make errors on the tax
                returns, creating additional burden to the taxpayers through
                the misapplication of tax laws and regulations.

                Recommendation

                We recommend that the Commissioner, W&I Division:
                1. Reinforce procedures and monitor the assistance
                   provided at the TACs to ensure existing screening
                   procedures are being followed before employees provide
                   taxpayers with tax preparation assistance or schedule an
                   appointment.
                Management’s Response: The IRS will issue a
                memorandum to remind all FA function employees to
                adhere to return preparation screening procedures in the
                Internal Revenue Manual (IRM). The employee performing
                the screening will determine if the customer meets the return
                preparation limitations and has all necessary documents
                such as Social Security cards. If the customer meets the
                criteria, he or she will be scheduled for the next available
                return preparation appointment.




                16
                  The EITC is a refundable credit established to offset the impact of
                Social Security taxes on low-income families and encourage them to
                seek employment rather than welfare.
                                                                                 Page 7
                    Improvements Are Needed to Ensure Tax Returns
                  Are Correctly Prepared at Taxpayer Assistance Centers

Taxpayers May Have Tax            IRS employees incorrectly prepared 19 (83 percent) of the
Returns Incorrectly Prepared at   23 tax returns based on the facts the TIGTA auditors
Taxpayer Assistance Centers       provided them while making anonymous visits to the TACs.
                                  Thirteen of the tax returns were for TY 2001 and 10 were
                                  for TY 2002. Figure 4 provides a summary of the accuracy
                                  rates for the 23 tax returns prepared.
                                             Figure 4: Results of 23 Tax Returns Prepared

                                                                         Correct17      Incorrect18
                                   Tax Returns Prepared                      4              19
                                   Percentage                               17%            83%
                                  Source: Anonymous visits performed by TIGTA auditors.

                                  If 17 (89 percent) of the 19 incorrectly prepared tax returns
                                  had been filed, the IRS would have incorrectly refunded
                                  approximately $32,000, including EITC totaling $15,800
                                  and Child Tax Credit (CTC)19 totaling $6,164. If the
                                  remaining 2 (11 percent) incorrectly prepared tax returns
                                  had been filed, the IRS would have inappropriately withheld
                                  $2,400 in tax refunds. Appendix VI provides a breakdown
                                  by the TACs visited and the overstatement or
                                  understatement for the 19 incorrectly prepared tax returns.
                                  After the TAC visits, we analyzed the tax returns prepared
                                  and identified the following factors that contributed to the
                                  incorrect preparation of tax returns.
                                  IRS employees modified the facts provided by the
                                  TIGTA auditors
                                  For all 23 tax returns, TIGTA auditors either verbally or in
                                  writing presented scenarios to the IRS employees preparing
                                  the tax returns. All scenarios required the IRS employees to
                                  determine whether the auditors qualified for the EITC. For
                                  6 (32 percent) of the 19 incorrectly prepared tax returns, IRS

                                  17
                                     Correct refers to tax returns on which the IRS employee correctly
                                  allowed only the credits and deductions the auditors were entitled to
                                  receive.
                                  18
                                     Incorrect refers to tax returns on which the IRS employee incorrectly
                                  allowed credits or deductions to which the auditors were not entitled.
                                  We also counted as incorrect those returns on which the auditors did not
                                  receive credits or deductions to which they were entitled.
                                  19
                                     The CTC is a refundable credit taxpayers may take to reduce the
                                  amount of tax up to $600 for each qualifying child.
                                                                                                  Page 8
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                employees did not correctly use the facts presented by the
                auditors. These actions would have allowed the auditors to
                receive EITC for which they were not eligible.
                For example, TIGTA auditors presented to the IRS
                employees how many months qualifying children had lived
                with them. The number of months presented did not qualify
                them for the EITC. However, IRS employees modified the
                number of months to a sufficient number needed to be
                eligible for the EITC.
                If filed, the 6 tax returns would have resulted in EITC
                overclaims totaling approximately $13,500. For one
                correctly prepared tax return, an IRS employee tried to use
                the tax preparation software to allow the auditor the credit.
                However, the tax preparation software would not allow the
                credit.
                We referred these cases to the TIGTA Office of
                Investigations for review to determine the intent behind the
                employees’ modifications of the facts presented by the
                auditors. Those investigations did not find intentional
                misconduct on the part of the employees. For example,
                some of the employees claimed inadequate training and/or a
                misunderstanding of the facts presented by the auditors as
                the reasons for their actions.
                IRS employees did not use the Paid Preparer’s EITC
                Checklist (Form 8867) to ensure taxpayers met the
                requirements for claiming the EITC
                For all 23 (100 percent) of the prepared tax returns, IRS
                employees did not use the Form 8867 when determining
                EITC eligibility. IRS operating guidelines require IRS
                employees to use the Form 8867 and exhibit due diligence
                when preparing tax returns to ensure taxpayers meet the
                requirements for claiming the EITC. In addition, using the
                Form 8867 helps to educate taxpayers on the requirements
                to claim the EITC.
                Of the 665,044 TYs 2001 and 2002 tax returns prepared in
                the TACs, a total of 155,208 (24 percent) involved an EITC
                claim. The EITC claims associated with these tax returns
                totaled approximately $296 million.


                                                                        Page 9
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                Both the IRS and the Congress recognize the EITC as a
                highly visible and well-known source of noncompliance.
                By not ensuring taxpayer eligibility, IRS employees
                increase the risk of taxpayers receiving erroneous payments
                and potentially subjecting these taxpayers to EITC
                examinations. As part of its Examination program, the IRS
                has identified 8,273 TY 2001 tax returns 20 prepared in the
                TACs as having questionable EITC claims. As of
                August 2003, 287 of these tax returns had been selected for
                examination.
                IRS employees did not use tax instructions and
                publications to determine taxpayer eligibility to receive
                credits and deductions
                The scenarios used by TIGTA auditors for the 23 tax returns
                prepared were designed to require IRS employees to make
                an eligibility determination for a wide range of tax law
                topics. 21 Figure 5 shows the accuracy of IRS employees’
                determinations in relation to these tax law topics.
                          Figure 5: Accuracy of Tax Returns by Tax Law Topic

                                                       Eligibility Assessment
                          Tax Law Topics            Correct            Incorrect
                            Filing Status               9                 14
                            Dependents                 13                 10
                               EITC                    15                  8
                                CTC                    13                 10
                     Additional Child Tax Credit       17                  6
                                              22
                      Rate Reduction Credit            11                  2
                Source: Anonymous visits performed by TIGTA auditors.

                During the fall of CY 2002, IRS employees were trained on
                the use of tax instructions and publications to assist
                taxpayers with tax law questions to ensure the accuracy of

                20
                   We limited our analysis to TY 2001 tax returns because this was the
                tax year for which the most recent IRS data were available.
                21
                   Tax law topics evaluated by IRS employees included Filing Status,
                Dependents, EITC, CTC, Additional Child Tax Credit, and Rate
                Reduction Credit.
                22
                   The Rate Reduction Credit applies only to the 13 TY 2001 tax returns
                the TIGTA auditors had prepared.
                                                                               Page 10
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                responses provided. This “publication method” requires
                IRS employees to obtain the appropriate publication, discuss
                specific information related to the topic, ask appropriate
                questions to obtain facts, and respond to the taxpayer’s issue
                or question. However, IRS management informed us that
                employees were not required to use this method when
                providing tax preparation assistance.
                During the course of the review, we communicated the
                above results to IRS management. The IRS took immediate
                corrective actions that required all IRS employees to use
                existing tax instructions and publications to ensure
                taxpayers were eligible to receive credits and deductions
                allowed on the tax returns.
                Each of the scenarios presented facts that required the IRS
                employee at the TAC to make a determination regarding the
                EITC and CTC. To qualify for these credits, a taxpayer
                must meet specific eligibility requirements, including items
                relating to relationship, residency, etc. If IRS employees do
                not use all resources available to them, they may not be able
                to correctly apply the applicable laws and regulations to
                ensure taxpayers are not receiving credits they are not
                entitled to receive. Figure 6 provides the volume of
                TYs 2001 and 2002 tax returns prepared at the TACs along
                with the substantial amount claimed for the EITC and CTC.
                                 Figure 6: TYs 2001 and 2002 Tax Returns
                               Prepared at the TACs With the EITC and CTC

                                            TY 2001                  TY 2002
                      Tax                         Credits                    Credits
                     Return       Total Tax       Claimed     Total Tax      Claimed
                     Type 23       Returns       (Millions)    Returns      (Millions)
                 EITC              84,988             $160     70,220          $136
                 CTC               52,692             $31      36,240          $20
                Source: IRS management information system (Return Transaction File)
                containing all tax returns prepared at the TACs.

                In addition, when employees do not ensure that they
                correctly apply tax laws and regulations, taxpayers may be
                at risk of not receiving the credits to which they are entitled.

                23
                  These tax returns are limited to taxpayers that claimed dependents on
                the tax returns and received the EITC or CTC.
                                                                               Page 11
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                For example, an analysis of all TYs 2001 and 2002 tax
                returns prepared at the TACs showed 30,741 tax returns and
                105,746 tax returns 24 on which the taxpayer claimed a
                dependent but did not receive the EITC and CTC,
                respectively.
                In July 2003, we info rmed the IRS there was a risk that
                approximately 48,538 TY 2002 taxpayers may have been
                entitled to receive the $400 advanced CTC payment but may
                not have received it as planned. In addition, there were
                36,240 taxpayers scheduled to receive approximately
                $14.5 million in advanced CTC payments to which they
                may not be entitled. This happened because IRS employees
                at the TACs did not properly determine taxpayer eligibility
                for the credit when preparing tax returns and because there
                was a systemic error in a tax preparation software package.
                Based on our results, we recommended the IRS take steps to
                ensure only eligible taxpayers receive the planned
                $400 advanced CTC payment.
                IRS employees used tax preparation software that had
                systemic errors to prepare returns for TYs 2001 and
                2002
                For 2 (11 percent) of the 19 incorrectly prepared tax returns,
                systemic errors in the tax preparation software used when
                preparing these tax returns would have prevented TIGTA
                auditors from receiving $2,400 in refunds to whic h they
                were entitled. The software for TYs 2001 and 2002 had the
                following systemic errors:
                ?? For TY 2001, the software would not allow the EITC or
                   CTC for taxpayers that claimed their brothers, sisters,
                   nieces, or nephews as qualifying children or depend ents,
                   even though the taxpayers were entitled to receive these
                   credits.
                ?? For TY 2002, the software would not allow the CTC for
                   taxpayers that claimed their brothers, sisters, nieces, or
                   nephews as dependents. The software would incorrectly
                   allow the CTC for taxpayers that claimed as dependents
                   foster children that lived in the home less than

                24
                  We limited our analysis to only those taxpayers that met the income
                qualifications for tax preparation assistance in the TACs.
                                                                              Page 12
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                     12 months, even though taxpayers were not entitled to
                     receive the credit.
                We could not determine how many taxpayers this might
                affect because of the way the IRS transcribes data.
                Management has been alerted to the problems we identified
                with the electronic tax preparation software. We are not
                making a specific recommendation to address this problem.
                We plan to conduct a separate review to evaluate the IRS’
                process fo r ensuring tax preparation software used by
                employees to prepare tax returns is accurate.
                The IRS FA function does not have a tax preparation
                assistance quality review process
                Tax returns prepared by IRS employees at the TACs are not
                subjected to a quality review process to ensure the
                correctness of the tax returns prepared. Instead, the IRS
                relies on a validation process 25 at submission processing
                sites 26 to identify errors on tax returns prepared in the TACs.
                However, this process does not validate a taxpayer’s
                eligibility to receive credits and deductions allowed by IRS
                employees on the tax return. That type of validation
                generally takes place only if the tax return is selected for
                examination.
                The IRS recognizes the need to implement an effective
                quality review system for its TACs. However, during Fiscal
                Year (FY) 2003, the FA function focused on a plan to
                improve the accuracy of the answers IRS employees at the
                TACs provide to taxpayers’ tax law questions. The IRS
                informed us that in FY 2004 it plans to implement a
                methodology to use Embedded Quality to measure customer
                service, including tax preparation assistance, provided in the
                TACs. The Embedded Quality approach focuses on
                standardized measurements, employee monitoring, and
                employee feedback at the group level. The IRS believes this
                type of quality review will allow TAC managers to provide
                feedback to their employees.



                25
                   Primary reasons returns are rejected by the IRS are math errors or an
                incorrect taxpayer name, Social Security Number, or birthday.
                26
                   Submission processing sites process tax returns, payments, and
                refunds; send taxpayer notices; and reconcile taxpayer accounts.
                                                                                Page 13
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                We believe that one of the major management challenges
                the IRS faces is to provide quality customer service to each
                and every taxpayer. Taxpayers that seek help in preparing
                their tax returns rely upon the professional assistance of IRS
                employees. However, without an effective tax preparation
                assistance quality review process, the IRS cannot be assured
                that its employees are preparing correct tax returns based on
                facts provided by taxpayers.

                Recommendations

                We recommend that the Commissioner, W&I Division:
                2. Reinforce existing procedures that require IRS
                   employees to use existing tax law instructions and
                   publications when assisting taxpayers.
                Management’s Response: The IRS will issue a
                memorandum reminding all FA function employees to
                adhere to return preparation procedures in the IRM which
                require that each TAC employee use the applicable
                worksheets prompted by the return preparation software and
                the publication method or job aids to determine eligibility
                for deductions and credits.
                3. Ensure a quality review methodology for tax return
                   preparation assistance is in place before the 2004 Filing
                   Season27 begins in January 2004.
                Management’s Response: Until Embedded Quality is fully
                implemented in all the TACs, the IRS will develop a quality
                review plan to identify actions needed to ensure TAC
                employees are adhering to return preparation procedures in
                the IRM. This plan will include requirements for
                managerial reviews of TAC employees who prepare tax
                returns and steps the Quality Review staff will take to
                review tax return preparation in the TACs.




                27
                 The filing season is the period from January through mid-April when
                most individual income tax returns are filed.



                                                                            Page 14
                        Improvements Are Needed to Ensure Tax Returns
                      Are Correctly Prepared at Taxpayer Assistance Centers

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine if tax returns prepared at the Internal
Revenue Service (IRS) Taxpayer Assistance Centers (TAC) were correct based on the facts
provided by the taxpayers. We determined if tax returns prepared in the TACs were correct by
determining if IRS employees evaluated each requesting taxpayer’s eligibility to claim credits
and deductions on the tax return. In addition, we assessed whether IRS employees at the TACs
properly screened taxpayers to ensure qualifications for tax return preparation1 were met prior to
the IRS employees’ preparation of the tax returns.
To achieve this objective, we performed the following tests:
     I.   Determined if IRS employees prepared correct tax returns based on facts provided by
          Treasury Inspector General for Tax Administration (TIGTA) auditors at the 26 TACs
          visited. Audit coverage included the TACs in states with high and low accuracy rates
          reported in the January through June 2002 Semiannual Walk-In report. 2 Where
          possible, TIGTA auditors visited the TACs located in or around major cities located in
          the selected states. Auditors developed scenarios and had IRS employees prepare tax
          returns based on training and the scope of topics prescribed in the Fiscal Year 2003
          Field Assistance function Operating Procedures.
    II.   Determined if IRS employees at the TACs used tax instructions and publications
          (i.e., the “publication method”) and asked appropriate probing questions while
          preparing tax returns.
III.      Determined if IRS employees at the TACs properly screened taxpayers for tax
          preparation assistance requirements and tax law topics that were within the scope of
          topics prescribed in the Field Assistance function Operating Procedures.
IV.       Analyzed IRS data to determine the number of taxpayers who visited the TACs and the
          number of taxpayers who had their tax returns prepared by IRS employees at the TACs.
          We did not validate the IRS data.



1
  Tax return preparation is limited to specific United States Individual Income Tax Returns (Forms 1040, 1040A,
1040EZ, and 1040X), Child and Dependent Care Expenses (Form 2441), Education Credits (Hope and Lifetime
Learning Credits) (Form 8863), Additional Child Tax Credit (Form 8812), Qualified Adoption Expenses
(Form 8839), and specific schedules (i.e., Schedules A, B (interest only), Earned Income Tax Credit, R, C-EZ, and
SE (in conjunction with C-EZ only)). Taxpayers must provide picture identification, have all necessary tax
documents including Social Security cards, and may not have income that exceeds $33,000 for Tax Year 2001 and
$35,000 for Tax Year 2002.
2
  Trends in Customer Service in the Taxpayer Assistance Centers Show Procedural and Training Causes for
Inaccurate Answers to Tax law Questions (Reference Numb er 2003-40-023, dated November 2002).
                                                                                                          Page 15
                Improvements Are Needed to Ensure Tax Returns
              Are Correctly Prepared at Taxpayer Assistance Centers

V.   Analyzed Tax Years 2001 and 2002 tax preparation software used by IRS employees at
     the TACs to prepare tax returns to determine if the programs prepared the tax returns
     correctly.




                                                                                   Page 16
                    Improvements Are Needed to Ensure Tax Returns
                  Are Correctly Prepared at Taxpayer Assistance Centers

                                                                                 Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Randee Cook, Director
Russell Martin, Acting Director
Frank Jones, Audit Manger
Pam DeSimonne, Senior Auditor
Lena Dietles, Senior Auditor
Kathy Henderson, Auditor
Geraldine Vaughn, Auditor




                                                                                         Page 17
                   Improvements Are Needed to Ensure Tax Returns
                 Are Correctly Prepared at Taxpayer Assistance Centers

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                    Page 18
                    Improvements Are Needed to Ensure Tax Returns
                  Are Correctly Prepared at Taxpayer Assistance Centers

                                                                                  Appendix IV


                     States Visited for Tax Preparation Assistance
                              February through April 2003




We visited seven states: California, Florida, Illinois, Massachusetts, New Hampshire,
South Carolina, and Texas.




                                                                                        Page 19
                             Improvements Are Needed to Ensure Tax Returns
                           Are Correctly Prepared at Taxpayer Assistance Centers

                                                                                                       Appendix V


                         Tax Years 2001 and 2002 Tax Returns Prepared at
                      Taxpayer Assistance Centers for Taxpayers With Income
                                  That Exceeded Requirements1

                     Tax Returns Prepared      Total Tax Year 2001      Tax Returns Prepared
                      for Taxpayers With           Tax Returns           for Taxpayers With         Total Tax Year 2002
         States        Income > $33,000              Prepared             Income > $35,000         Tax Returns 2 Prepared
ALABAMA                         141                     4,850                      58                        4,525
ALASKA                          21                      1,288                      2                          677
ARIZONA                         73                      1,553                      11                         560
ARKANSAS                        73                      1,954                      20                        1,433
CALIFORNIA                     1,641                   19,715                     687                       11,846
COLORADO                         7                       403                       4                          362
CONNECTICUT                     717                    21,797                     296                       17,626
DELAWARE                         0                        0                        0                           0
FLORIDA                         224                     7,032                      52                        5,247
GEORGIA                         265                    10,512                      60                        9,188
HAWAII                          49                       851                       11                         516
IDAHO                           65                       901                       28                         687
ILLINOIS                        473                    12,457                     293                       14,088
INDIANA                         485                    13,140                     188                        8,862
IOWA                            67                      1,344                      75                        1,235
KANSAS                          345                     4,320                     120                        2,531
KENTUCKY                        105                     5,466                      44                        5,151
LOUISIANA                       285                     6,561                      60                        4,647
MAINE                           237                     5,814                      96                        4,821
MARYLAND                       1,076                   17,337                     530                       12,917
MASSACHUSETTS                   178                     5,368                      71                        3,925
MICHIGAN                        203                     6,719                      46                        4,529
MINNESOTA                       56                       727                       19                         345
MISSISSIPPI                     76                      3,467                      30                        2,910
MISSOURI                        725                     9,648                     257                       11,279




     1
       The income limit requirement for tax return preparation in the Taxpayer Assistance Centers was $33,000 for Tax
     Year 2001 and $35,000 for Tax Year 2002.
     2
       January through June 2003.
                                                                                                              Page 20
                                  Improvements Are Needed to Ensure Tax Returns
                                Are Correctly Prepared at Taxpayer Assistance Centers

                          Tax Returns Prepared       Total Tax Year 2001       Tax Returns Prepared
                           for Taxpayers With            Tax Returns            for Taxpayers With          Total Tax Year 2002
           States           Income > $33,000               Prepared              Income > $35,000          Tax Returns 2 Prepared
MONTANA                              140                      3,978                       52                         2,383
NEBRASKA                             81                       3,277                       33                         3,419
NEVADA                               112                      2,055                       21                         1,125
NEW HAMPSHIRE                        120                      2,055                       46                         1,929
NEW JERSEY                           271                      7,585                       121                        7,763
NEW MEXICO                           56                       1,529                       14                          584
NEW YORK                            1,155                     35,600                      439                        27,499
NORTH CAROLINA                       304                      6,700                       141                        7,522
NORTH DAKOTA                         27                        890                        68                         1,443
OHIO                                 430                      19,186                      154                        17,385
OKLAHOMA                             54                       2,669                       41                         2,338
OREGON                               145                      4,685                       63                         3,165
PENNSYLVANIA                         481                      12,885                      215                        13,166
RHODE ISLAND                         69                       5,378                       20                         4,482
SOUTH CAROLINA                       86                       2,819                       33                         3,246
SOUTH DEKOTA                         124                      1,792                       71                         1,613
TENNESSEE                            318                      8,512                       140                        6,252
TEXAS                               1,028                     17,024                      324                        11,352
UTAH                                 129                      1,490                       40                         1,070
VERMONT                              35                       1,225                        7                         1,055
VIRGINIA                             426                      12,390                      271                        15,307
WASHINGTON                           547                      10,133                      146                        5,723
WASHINGTON, D.C.                     68                       2,094                       25                         2,050
WEST VIRGINIA                        109                      1,631                       67                         4,738
WISCONSIN                            76                       2,616                       16                         1,423
WYOMING                              176                      1,776                       43                         1,193
                     3
NO STATE NAMED                       661                      7,794                       433                        5,863
                4
           Totals                   14,815                   342,992                     6,102                      284,995
       Source: Internal Revenue Service management information system (Return Transaction File) containing all tax
       returns prepared at the Taxpayer Assistance Centers.



       3
           For these tax returns, Internal Revenue Service records did not identify the taxpayer address.
       4
           These totals are limited to e-filed tax returns and do not include 37,057 paper tax returns prepared at the TACs.



                                                                                                                       Page 21
                            Improvements Are Needed to Ensure Tax Returns
                          Are Correctly Prepared at Taxpayer Assistance Centers

                                                                                                   Appendix VI


    Results of Tax Returns Incorrectly Prepared at the Taxpayer Assistance Centers

       Taxpayer Assistance        Internal Revenue         Correct1          Refunds              Refunds
         Centers Visited           Service Refund          Refund           Understated          Overstated
     Long Beach, CA                    $4,241               $5,441              $1,200
     Los Angeles, CA                   $4,241               $5,441              $1,200
     Santa Ana, CA                     $3,914               $2,691                                  $1,223
     Fort Myers, FL                    $1,295                $980                                    $315
     Fort Myers, FL                    $1,227                $192                                   $1,035
     St. Petersburg, FL                $2,818               $2,547                                   $271
     St. Petersburg, FL                $1,518                $192                                   $1,326
     Tampa, FL                         $2,495                $980                                   $1,515
     Tampa, FL                          $627               $(559)2                                   $627
     Tampa, FL                         $4,241               $3,070                                  $1,171
     Chicago, IL                       $5,441               $2,547                                  $2,894
     Ford City, IL                     $5,441               $2,547                                  $2,894
     Manchester, MA                    $1,827               $(559)                                  $1,827
     Worcester, MA                     $4,121               $(559)                                  $4,121
     Myrtle Beach, SC                  $5,037               $2,180                                  $2,857
     Myrtle Beach, SC                  $3,806                $312                                   $3,494
     Columbia, SC                      $3,806               $(559)                                  $3,806
     Columbia, SC                      $3,103                $860                                   $2,243
     Desoto, TX                         $627                $(559)                                   $627
              Totals:                                                           $2,400              $32,246
    Source: Anonymous visits performed by Treasury Inspector General for Tax Administration (TIGTA) auditors.




1
  Correct amount of refund based on TIGTA auditors’ preparation of the tax returns using the facts in the scenarios.
2
  If these tax returns had been prepared correctly, taxpayers would have owed taxes totaling $559 instead of
receiving refunds. If examined, these taxpayers would have to repay the refunded amount and the $559 tax liability,
plus interest.
                                                                                                             Page 22
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers

                                                        Appendix VII


   Management’s Response to the Draft Report




                                                             Page 23
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers




                                                        Page 24
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers




3a




                                                        Page 25
  Improvements Are Needed to Ensure Tax Returns
Are Correctly Prepared at Taxpayer Assistance Centers




                                                        Page 26
